                     AUDIT REPORT

           Audit of NRC’s Information Technology Governance


                       OIG-14-A-04-December 9, 2013




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL




                                   December 9, 2013


MEMORANDUM TO:              Mark A. Satorius
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S INFORMATION TECHNOLOGY
                            GOVERNANCE (OIG-14-A-04)


Attached is the Office of the Inspector General’s (OIG) audit report titled Audit of NRC’s
Information Technology Governance.

The report presents the results of the subject audit. Following the November 22, 2013,
exit conference, agency staff indicated that they had no formal comments for inclusion
in this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, at 415-5911.

Attachment: As stated
                                            Audit of NRC’s Information Technology Governance



EXECUTIVE SUMMARY

   BACKGROUND

        Information technology (IT) governance is the leadership, structures, and
        processes that ensure that an organization’s IT sustains and extends the
        organization’s strategies and objectives. Its overall objective is to ensure
        that the organization can sustain its operations and implement strategies
        required to meet future objectives using IT. IT governance is necessary to
        manage information and employ IT to improve the productivity,
        effectiveness, and efficiency of agency programs.


   OBJECTIVE

        The audit objective was to assess the effectiveness of the Nuclear
        Regulatory Commission’s (NRC) IT governance structure in meeting the
        agency’s current and future IT needs.



   RESULTS IN BRIEF

        NRC’s IT governance is not fully meeting stakeholder needs. Federal
        guidance states that proper guidance documentation and communication
        are important factors in the success of agency programs. However,
        NRC’s IT governance framework and processes have not been effectively
        documented and communicated. The Office of the Inspector General
        found that the most prevailing issue area that stakeholders communicated
        was a general lack of confidence in the Office of Information Services’
        (OIS) ability to deliver an acceptable level of customer service.
        Additionally, confusion surrounding reassignment of OIS staff roles exists.
        As a result, NRC may not be able to fully meet the agency’s future IT
        needs.



   RECOMMENDATIONS

        This report makes four recommendations to improve the effectiveness of
        NRC’s IT governance structure in meeting the agency’s future IT needs.




                                      i
                                      Audit of NRC’s Information Technology Governance



AGENCY COMMENTS

    An exit conference was held with the agency on November 22, 2013.
    Prior to this meeting, after reviewing a discussion draft, agency
    management provided supplemental information that has been
    incorporated into this report, as appropriate. As a result, agency
    management stated their general agreement with the findings and
    recommendations in this report and opted not to provide formal comments
    for inclusion in this report.




                                ii
                                         Audit of NRC’s Information Technology Governance



ABBREVIATIONS AND ACRONYMS



   CIO      Chief Information Officer

   CONOPS   OIS Reorganization Concept of Operations

   IPEC     Information Technology/Information Management Portfolio
            Executive Council

   IT       Information Technology

   ITB      Information Technology/Information Management Board

   NRC      Nuclear Regulatory Commission

   OMB      Office of Management and Budget

   OIG      Office of the Inspector General

   OIS      Office of Information Services




                                   iii
                                                               Audit of NRC’s Information Technology Governance



TABLE OF CONTENTS



    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYNMS ................................................................ iii

        I.       BACKGROUND .................................................................................... 1
        II.      OBJECTIVE ......................................................................................... 6
        III.     FINDING .............................................................................................. 6
                    NRC’s IT Governance Could Be Improved ....................................... 6
                    Recommendations ........................................................................ 15
        IV.      AGENCY COMMENTS....................................................................... 16

    APPENDIX

    OBJECTIVE, SCOPE, AND METHODOLODY................................................... 17




                                                       iv
                                                        Audit of NRC’s Information Technology Governance



I.     BACKGROUND

               Information technology (IT) governance is the leadership, structures, and
               processes that ensure that an organization’s IT sustains and extends the
               organization’s strategies and objectives. Its overall objective is to ensure
               that the organization can sustain its operations and implement strategies
               required to meet future objectives using IT. The increasing use of
               technology has created a critical dependency on IT that requires a specific
               focus on governance. Accordingly, IT governance is necessary to
               manage information and employ IT to improve the productivity,
               effectiveness, and efficiency of agency programs.

               Federal Guidance

               The Clinger-Cohen Act of 1996 was designed to improve the way the
               Federal Government invests in IT. Since this law was enacted, the Chief
               Information Officers (CIO) in Federal organizations have been assigned
               primary responsibility for the management of Federal IT investments. This
               includes specific procedural and policy-related responsibilities such as
               capital planning, security, and enterprise architecture, as well as activities
               for shaping the information culture of the agency such as leadership and
               management.

               In December 2010, the Office of Management and Budget (OMB) issued
               its 25 Point Implementation Plan to Reform Federal Information
               Technology Management, outlining activities to reform IT management
               throughout the Federal Government. 1 The plan recommends more
               effective management of large-scale IT programs by streamlining
               governance and improving accountability. According to the plan, this
               involves reforming and strengthening investment review boards to enable
               them to more adequately manage agency portfolios, redefining the role of




1
  In January 2013, the Nuclear Regulatory Commission’s (NRC) Office of the Inspector General (OIG)
issued audit report OIG-13-A-09, Audit of NRC’s Progress in Carrying Out the 25 Point Implementation
Plan to Reform Federal Information Technology Management. This report is publicly available in the NRC
Agencywide Documents Access and Management System; see accession number ML13023A105.


                                                  1
                                                          Audit of NRC’s Information Technology Governance



                  agency CIOs to focus on portfolio management, and rolling out face-to-
                  face, evidence-based reviews of agency IT programs.

                  In a 2011 memorandum, 2 OMB reiterated the need for CIOs to focus "on
                  delivering IT solutions that support the mission and business effectiveness
                  of their agencies and overcome bureaucratic impediments to deliver
                  enterprise-wide solutions." One of the four areas singled out for increased
                  attention was IT governance. The memorandum highlighted the role of
                  the CIO to drive the investment review process and to have responsibility
                  over the entire IT portfolio for an agency. The memorandum also stated
                  that CIOs must work with Chief Financial Officers and Chief Acquisition
                  Officers to ensure portfolio analysis is an integral part of the yearly budget
                  process for an agency.

                  NRC Guidance

                  NRC’s primary internal guidance for IT governance is Management
                  Directive 2.8, Project Management Methodology (PMM). The directive
                  identifies this methodology as the only approved methodology for IT
                  investment management. This methodology facilitates effective selection,
                  approval, management, oversight, reporting, and documentation of IT
                  investments throughout their entire life cycle. This directive defines the
                  major components of the methodology and assists NRC offices in locating
                  more detailed information necessary to implement and use this
                  methodology for managing IT investments.

                  NRC IT Organizational Structure

                  NRC’s Deputy Executive Director for Corporate Management also serves
                  as the agency’s CIO. The CIO oversees NRC’s agencywide Information
                  Technology/Information Management program, and reports directly to
                  NRC’s Executive Director for Operations.

                  The Office of Information Services (OIS) and the Computer Security Office
                  report to the CIO. OIS is the primary office responsible for implementing
                  NRC’s IT governance. The office manages and operates the agency’s IT
                  infrastructure, provides information and records services, and coordinates


2
    OMB Memorandum M-11-29, Chief Information Officer Authorities, August 8, 2011.
                                                   2
                                          Audit of NRC’s Information Technology Governance



programs to assist with the development and maintenance of NRC’s
business applications. OIS also manages the agency’s IT strategic
planning, capital planning, and enterprise architecture activities. The
Computer Security Office oversees the agency’s IT security program,
including policy, training, and authorization of IT systems. Figure 1 shows
NRC’s IT organizational structure.


Figure 1: NRC IT Organizational Structure


                Chairman/Commission




                 Executive Director for
                     Operations




               Deputy Executive Director
                     for Corporate
                     Management/
               Chief Information Officer




             Office of             Computer
           Information           Security Office
             Services



Source: OIG




                                3
                                    Audit of NRC’s Information Technology Governance



IT Governance at NRC

In January 2012, NRC’s CIO and Chief Financial Officer announced a plan
to streamline and optimize the IT governance process. The plan included:

   •   Replacing the Information Technology Senior Advisory Council with
       a new Information Technology/Information Management Portfolio
       Executive Council (IPEC) consisting primarily of NRC office
       directors.

   •   Replacing the Information Technology Business Council with the
       Information Technology/Information Management Board (ITB),
       which is an expanded version of the council that currently reviews
       IT changes.

The IPEC is an executive management body established to determine
NRC IT strategic direction and to manage the agency’s IT portfolio. The
IPEC sets current fiscal year priorities and determines the funding of IT
investments that integrate into the IT portfolio. The IPEC is co-chaired by
the CIO and Chief Financial Officer and consists of nine voting members
and seven advisory members. Its voting members consist primarily of
office directors from major NRC offices.

The ITB reports to the IPEC and is a review body established to review
and recommend changes to the agency's IT architecture, including the
portfolio of IT systems, technologies, and standards. The ITB’s goal is to
help align IT investments and technology standards with NRC’s mission
and ensure that the investments are made according to agency priorities.
The ITB reviews new proposals and current IT investments, alignment
with strategic direction, ability to integrate into NRC’s IT architecture,
conformance with technology standards, and potential risks to NRC’s IT
environment. Its members are office branch chiefs from the majority of
NRC program and regional offices, including several representatives from
OIS.

OIS Reorganization

In April 2013, OIS initiated an office-wide reorganization. There were
several reasons provided by OIS for the reorganization, namely:
                              4
                                                       Audit of NRC’s Information Technology Governance



    •    The desire to become a more customer-centric organization.
    •    Continued pressures to contain the IT budget.
    •    Increased reliance on IT to accomplish NRC business.
    •    A rapidly evolving IT environment.
    •    The requirement to meet external mandates from oversight
         agencies.

OIS had traditionally focused on infrastructure services and managing
delivery of its technology products and services; however, industry
guidance suggests a more holistic approach to managing services from
end-to-end. Managing the entire business service along with its
underlying components would more likely assure that OIS delivers the
required functionality and service levels to its stakeholders. The new
structure is intended to focus on service functions, improve outreach and
customer services, develop an enterprise-level approach, and establish an
overall sense of continuity. Figure 2 illustrates OIS’ new organizational
structure as of April 2013.

Figure 2: OIS Organizational Structure


                                                 OIS



     Information
Technology/Information
                         Solutions Development                                Customer Service
 Management Portfolio                                   Operations Division
                                 Division                                         Division
Management & Planning
       Division



Source: OIG

To provide direction and guidance, OIS created the OIS Reorganization
Concept of Operations (CONOPS). The purpose of the CONOPS
document is to help OIS staff understand the reorganization and achieve
desired results. The CONOPS provides guidance and a basic framework
to assist OIS staff in understanding their roles and responsibilities and
how the new organization works.




                                           5
                                                    Audit of NRC’s Information Technology Governance



II.      OBJECTIVE

                The audit objective was to assess the effectiveness of NRC’s IT
                governance structure in meeting the agency’s current and future IT needs.
                The report appendix contains information on the audit scope and
                methodology.


III.     FINDING

         NRC’s IT Governance Could Be Improved

                NRC’s IT governance is not fully meeting stakeholder needs. Federal
                guidance states that proper guidance documentation and communication
                are important factors in the success of agency programs. However,
                NRC’s IT governance framework and processes have not been effectively
                documented and communicated. As a result, NRC may not be able to
                fully meet the agency’s future IT needs.

                Requirements for Effective IT Governance

                Documentation and communication are important factors in the success of
                agency programs. Federal standards require agency processes to be
                clearly documented and communicated. In implementing these standards,
                management is responsible for developing internal controls – such as
                detailed agency guidance, policies, procedures, and practices – to fit their
                agency’s operations and help staff understand and carry out their
                responsibilities.

                Documentation Is Required

                Guidance documents help ensure that management's directives are
                carried out. The U.S. Government Accountability Office’s Standards for
                Internal Control in the Federal Government 3 requires clearly documenting
                processes at an appropriate level of detail to allow management to
                effectively monitor the activity. The documentation must be properly
                managed, maintained, and made available in order to meet its intended

3
    GAO/AIMD-00-21.3.1, November 1999.
                                              6
                                                          Audit of NRC’s Information Technology Governance



                purpose. In addition, OMB recognizes the value of clearly documenting
                agency guidance. OMB maintains that well-designed guidance
                documents, if used properly, can appropriately direct agency employees
                and increase efficiency.

                Communication Is Required

                Relevant, reliable, and timely communication is required to control
                operations and achieve objectives. Information should be communicated
                to those who need it, and within a timeframe that enables them to carry
                out their responsibilities. Effective communication should occur in a broad
                sense with information flowing down, across, and up the organization. In
                addition, management should ensure there are adequate means of
                communicating with, and obtaining information from, external stakeholders
                that may have a significant impact on the agency achieving its goals.

                Stakeholder Needs Not Being Met

                NRC’s IT governance is not fully meeting stakeholder 4 needs. During this
                audit, OIG interviewed 42 of NRC’s management and staff, many of whom
                expressed concerns with several areas of NRC’s IT governance process.

                For example:

                    •   Lack of confidence in OIS’ ability to deliver an acceptable level of
                        customer service.
                    •   Effectiveness of the IPEC and ITB.
                    •   Customer Service Division is incomplete.
                    •   Milestones are incomplete or undocumented.
                    •   Confusion surrounding reassignment of OIS staff roles.

                Lack of Confidence in OIS’ Ability to Deliver an Acceptable Level of
                Customer Service

                Perhaps the most prevailing issue area that stakeholders communicated
                was a general lack of confidence in OIS. OIG interviewed NRC
                employees from program and regional offices who have worked with OIS
4
 For the purpose of this audit, the term “stakeholders” refers to all OIS customers, such as NRC program
and regional offices.
                                                   7
                                                        Audit of NRC’s Information Technology Governance



               on IT projects. Many stakeholders expressed concerns over OIS’ inability
               to deliver acceptable customer service.

               A common theme was that stakeholders did not trust OIS to meet NRC’s
               IT needs based on their previous experiences. Some of the responses
               included:

                   •   OIS needing to be more customer-focused.
                   •   OIS not understanding program offices’ type of work or systems.
                   •   OIS not having the capacity to do the job.
                   •   OIS being more of a regulator and adding extra burdens to program
                       offices.
                   •   Some offices seek IT solutions from OIS only to end up doing the
                       work themselves.

               Due to this lack of confidence, some stakeholders within NRC have
               circumvented OIS and the IT governance process and have created their
               own systems, also known as “shadow IT” systems. 5

               Effectiveness of the IPEC and ITB

               Stakeholders interviewed widely praised the IPEC and ITB as a step in the
               right direction and a significant improvement over their predecessors.
               However, both entities have come under some criticism as some question
               their effectiveness.

               IPEC and ITB Working Relationships

               Some stakeholders criticized the working relationship between the IPEC
               and ITB. The IPEC, as a steering committee composed of office directors
               and division directors, is supposed to make strategic decisions after they
               are given alternatives resulting from the ITB’s research on the technical
               issues. However, there were instances where IPEC members found that
               business cases and topics discussed were far more technical and detail-

5
 Shadow IT is hardware or software within an enterprise that is not supported by the organization’s
central IT department. The term often carries a negative connotation because it implies that the IT
department has not approved the technology or does not even know employees are using it. Shadow IT
can introduce security risks when unsupported hardware and software are not subject to the same
security measures that are applied to supported technologies.
                                                 8
                                                            Audit of NRC’s Information Technology Governance



                oriented than they anticipated. An IPEC member believed the ITB needed
                to simplify its presentations so the IPEC could more easily make executive
                decisions. Additionally, an ITB member was concerned that the ITB was
                not making any hard decisions.

                On the other hand, another IPEC member believed that some IPEC
                members were not fully engaged with the IT governance process. The
                IPEC member remarked that business leads must take ownership of their
                systems. An ITB member opined that the IPEC should be more involved
                with searching for IT solutions rather than just administratively processing
                transactions. An OIS manager expressed concern that IPEC members
                sometimes send their deputies to attend IPEC meetings and these
                deputies are typically not as familiar with the other systems outside of their
                area or business line.

                ITB Composition

                Stakeholders also commented on the ITB’s composition and scope. The
                ITB consists of 18 members covering a majority of NRC’s program offices
                and each regional office. An ITB member opined that the scope was “out
                of control with too many fingers in the pie.” Another ITB member intimated
                that some of the other ITB members may not be qualified. Finally, a
                different ITB member asserted that only individuals from the Office of
                Administration, the Computer Security Office, and OIS should compose
                the ITB. In contrast, there were several members who expressed that
                their regional or program office deserved an equal voice and did not want
                membership restricted. 6

                Approval Timeliness

                According to stakeholders, another issue involving both the IPEC and ITB
                is how long it takes to get any IT system or software approved. There is
                currently no timetable or limit as to how long a decision may take. A
                program office manager claimed that some staff believe that it takes too
                long to get through the IT governance process. An NRC regional office

6
  OIG was recently informed that the ITB was in the midst of a transition that would divide the group into
two parts: the ITB itself and a new architectural council. The ITB will focus on business needs while the
architectural council will focus on technological issues and consist solely of members from OIS and the
Computer Security Office.
                                                     9
                                     Audit of NRC’s Information Technology Governance



manager said that speed is essential, and waiting 6 to 8 weeks for a
decision from OIS is unacceptable. Another manager indicated that the
approval process can be burdensome because it takes too much time.
The manager believed the ITB had the right intentions, but can act as a
restraint as his staff is always asking how long it will take for OIS to do
something. An OIS staff member admitted that these decisions can take
time, confirming that the IT approval process is slow and it can take a few
weeks to go through all of the steps.

It should be noted that the ITB and IPEC member responsibilities are
collateral duties and are added to the existing workloads of the members’
primary jobs. One ITB member opined that members of the ITB do not
have enough time for full integration and sequencing of their activities
necessary to support the approval and control process. With his
numerous roles in connection with the ITB, he does not have much time to
focus on everything in addition to all of his regular responsibilities.

Customer Service Division Is Incomplete

As stated earlier, one of the driving forces behind the OIS reorganization
was the desire to have OIS become more customer focused. During the
reorganization in April 2013, OIS realigned its IT/IM services within four
divisions, with an emphasis on the Customer Service Division. However,
as of August 2013, the Customer Service Division was the only division
that still had several vacant managerial positions. It is anticipated that the
OIS reorganization will not be fully complete until the second quarter of
2014 due to OIS’ implementation of its new customer service strategy.

Milestones Are Incomplete or Undocumented

Progress toward some reorganization plan milestones is behind schedule
and other milestones are undocumented. For example, in the OIS
reorganization Implementation Plan, the development and revision of
position descriptions was scheduled for completion in May 2013, but has
not been completed. In addition, the OIS reorganization Communication
Plan does not document whether any tasks have been completed.




                              10
                                    Audit of NRC’s Information Technology Governance



Confusion Surrounding Reassignment of OIS Staff Roles

One of the major challenges OIS faced when going through its recent
reorganization was reassigning roles and responsibilities to numerous
staff. The reorganization created some confusion – not only among
stakeholders – but also among OIS staff regarding past and current
responsibilities. During the early stages of the reorganization, an OIS
manager claimed that very few OIS staff had transitioned to their new
roles as the reorganization was an ongoing process. The manager said
staff needed to figure out their new roles, what old work they were taking
with them, and who they were transferring their old work to. Another OIS
manager admitted that some of the IT functions were not picked up as part
of the new structure and therefore may have been overlooked. This may
have resulted in higher workloads and stress levels on some OIS
managers and staff. Finally, an Office of Administration manager
remarked that work was moving from person to person, apparently leading
to some short-term confusion. Some OIS personnel were not sure what
they were supposed to be doing because some of the decisions regarding
the reorganization had yet to be made. Meanwhile, some stakeholders
stated that they were not sure who to speak with in OIS since people have
changed positions and new divisions have been created.

OIS Is Making Improvements

While there has been some dissatisfaction from stakeholders, several
have also responded that they are quite satisfied with OIS and that things
are much improved from the past. Further, OIS recognized that
improvements were needed and therefore assisted in creating the IPEC
and ITB. In addition, OIS initiated its internal reorganization with a major
focus on improving customer service.

Framework and Processes Not Effectively Documented or
Communicated

The documentation of NRC’s IT governance framework and processes is
not comprehensive and has not been effectively communicated to its
stakeholders. For example OIG found:



                              11
                                     Audit of NRC’s Information Technology Governance



   •   Governance charters lack specificity.
   •   Management Directive 2.8 is outdated.
   •   The CONOPS is incomplete.
   •   An overall lack of effective communication.

Framework and Processes Not Effectively Documented

Governance Charters Lack Specificity

The IPEC and ITB charters lack specific details on IT governance
processes. The charters are neither thorough nor specific enough to
achieve their intended purposes. The groups’ charters seek to align IT
investments with NRC’s business objectives; however, the charters do not
mention how to achieve this intended purpose. For example, the charters
do not include information such as:

   •   A minimum threshold for which ITB/IPEC approval may not be
       needed.
   •   A format for presenting IT cases.
   •   A format for evaluating and approving IT cases.
   •   Timelines and standards for making decisions and delivering
       services.
   •   A process for communicating IPEC decisions to program offices or
       other interested parties.
   •   A process for following up after a system is implemented.
   •   A process for measuring the success of IPEC and ITB decisions.

An ITB member from a regional office talked about a specific IT issue his
office was facing and said he was not sure if this issue fit the ITB charter.

Additionally, when asked how the success of their final decisions is
measured, some IPEC members said that they either did not know or did
not believe they had a formal way of doing this.

Management Directive 2.8 Is Outdated

Management Directive 2.8, Project Management Methodology (PMM), is
the sole guidance used for the IT investment management process, yet is
more than 6 years old and incomplete. NRC’s policy is to ensure that IT
                             12
                                     Audit of NRC’s Information Technology Governance



investments are planned, built, selected, managed, and evaluated to
maximize the value and minimize the risks of those investments in
accordance with Federal statutes and regulations. However, the directive
does not address how IT aligns with the agency’s objectives, and does not
even use or define the term “IT governance.” Furthermore, NRC’s Project
Management Methodology Web page depicts an older IT governance
structure.

The Concept of Operations (CONOPS) Is Incomplete

The CONOPS provides guidance and a basic framework to assist OIS
staff in understanding their roles and responsibilities and how the new OIS
organization works; however, the CONOPS is still in draft and is
incomplete. Stakeholder interviews describe a lack of clarity for who in
OIS is responsible for what. Based on OIG’s review, there is no indication
as to how OIS tracks and documents the evolving nature of the OIS
organization and its effect on operations and the CONOPS framework.
There is also no indication of how OIS is tracking and measuring the
expected benefits of the reorganization.

According to industry best practices, when implementing an IT
governance framework, it is important to evaluate the implementation
efforts by developing measures to assess progress in meeting objectives.
Lessons learned and recommendations for improving the investment
process should be developed, documented, and distributed to all
stakeholders.

Framework and Processes Not Effectively Communicated

The IT governance framework and processes have not been effectively
communicated to stakeholders. OIS management has not communicated
the requirements of the ITB/IPEC evaluation and approval process,
including details of individual roles and responsibilities, service followup,
project tracking, and matrices to measure the success of its decisions that
directly affect program and regional offices. This has resulted in a lack of
stakeholder buy-in. According to industry best practices, to effectively
implement a new IT governance framework, organizations should obtain
buy-in by involving all key stakeholders to ensure key perspectives are
considered and facilitate adoption. Taking these steps increases the

                              13
                                    Audit of NRC’s Information Technology Governance



likelihood that the new IT governance process will be adopted despite the
significant cultural change it represents. An OIS manager stated that OIS
had openly communicated the upcoming reorganizational changes to
stakeholders, but did not believe OIS was necessarily required to obtain
buy-in from stakeholders.

It should be noted that OIS management provided OIG an Implementation
Plan and a Communications Plan concerning the office’s reorganization.
OIS also sought feedback from its staff prior to the reorganization by
conducting several meetings and sending out emails and surveys asking
for staff comments. While OIS took these positive steps, OIG found that
some confusion still existed among stakeholders and OIS staff and that
the information provided by OIS may not have been communicated
effectively. For example, in addition to stakeholders’ issues previously
mentioned in this report, OIS employees exhibited some contradictions
displaying a lack of effective communication. For instance:

   •   One OIS employee stated that the OIS reorganization was fully
       operational, another said it would be fully operational by October
       2013, and another said it would be fully operational in 2nd quarter
       of 2014.
   •   One OIS employee said that people were still transitioning and
       trying to figure out their new roles, while another OIS employee
       said that OIS staff had been settled in their roles for quite some
       time.
   •   An ITB member questioned why even small program office
       purchases must go through the ITB, while an IPEC member
       countered that program offices can purchase whatever they want
       as long as they have the money for it.

Agency’s IT Needs May Not Be Met

NRC may not be able to fully meet the agency’s future IT needs without
comprehensive and communicated documentation of NRC’s IT
governance framework and processes. Specifically, there is a lack of
assurance that IT services and management can be adequately provided
to the agency. Some stakeholders believe that OIS has not provided
sufficient customer service and have yet to be convinced that OIS can be
counted upon to deliver an acceptable level of service. As a result, some
                             14
                                        Audit of NRC’s Information Technology Governance



     stakeholders have been circumventing OIS and the governance process
     by approving or creating their own shadow IT systems. This, in turn,
     creates a less effective IT governance process which may result in
     possible IT security breaches, compliance issues, and investment waste.


Recommendations

     OIG recommends that the Executive Director for Operations:


     1. Revise the IPEC and ITB charters to more clearly define:

           •   Roles and responsibilities.
           •   The evaluation, approval, and decision followup process.


     2. Revise NRC Management Directive 2.8 to include:

           •   Current IT governance stakeholder requirements.
           •   A definition of IT governance, structure, and processes.

     3. Update and finalize the CONOPS to be consistent with current
        practice, including a schedule for full implementation.


     4. Develop and implement a comprehensive IT governance
        communication strategy that:

           •   Promotes buy-in from regional and program office stakeholders
               by requesting feedback.
           •   Clearly explains policies and procedures of the IPEC and ITB
               charters, as well as the CONOPS, to all stakeholders.
           •   Provides easily retrievable access to the updated charters and
               CONOPS.




                                  15
                                           Audit of NRC’s Information Technology Governance



IV.   AGENCY COMMENTS


         An exit conference was held with the agency on November 22, 2013.
         Prior to this meeting, after reviewing a discussion draft, agency
         management provided supplemental information that has been
         incorporated into this report, as appropriate. As a result, agency
         management stated their general agreement with the findings and
         recommendations in this report and opted not to provide formal comments
         for inclusion in this report.




                                     16
                                                Audit of NRC’s Information Technology Governance

                                                                                     Appendix


OBJECTIVE, SCOPE, AND METHODOLOGY

    OBJECTIVE

            The audit objective was to assess the effectiveness of NRC’s IT
            governance structure in meeting the agency’s current and future IT needs.

    SCOPE

            The audit reviewed NRC’s activities related to IT governance with special
            emphasis on framework and processes. OIG conducted this performance
            audit from March 2013 through October 2013 at NRC headquarters in
            Rockville, MD. Internal controls related to the audit objective were
            reviewed and analyzed. Throughout the audit, auditors were aware of the
            possibility or existence of fraud, waste, or misuse in the program.

    METHODOLOGY

            To address the audit objective, OIG auditors interviewed 42 NRC
            managers and staff. Furthermore, OIG reviewed Federal and internal
            agency guidance, including:

               •   Standards for Internal Control in the Federal Government.
               •   Clinger-Cohen Act of 1996.
               •   Paperwork Reduction Act of 1995.
               •   E-Government Act of 2002.
               •   25 Point Implementation Plan to Reform Federal Information
                   Technology Management.
               •   OMB Memorandum M-11-29, Chief Information Officer Authorities.
               •   NRC Management Directive 2.6, Information Technology
                   Infrastructure.
               •   NRC Management Directive 2.8, Project Management Methodology
                   (PMM).

            We conducted this performance audit in accordance with generally
            accepted Government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to

                                         17
                                   Audit of NRC’s Information Technology Governance



provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

The audit was conducted by Beth Serepca, Team Leader;
Robert Woodward, Audit Manager; Michael Blair, Senior Analyst;
Ziad Buhaissi, Senior Auditor; and Neil Doherty, Senior Analyst.




                            18
